CERTIFICATE OF COMPLIANCE
I, non-attorney, certify that this brief conforms to the requirements of Supreme Court Rules 341 (a) and (b).
The length of this brief, excluding the pages or words contained in the Rule 341 (d) cover, the Rule
341(h)(1) statement of points and authorities, the Rule 341(c) certificate of compliance, the certificate of
service, and those matters to be appended to the brief under Rule 342(a) is 13 pages.

Deborah Cheng

PROOF OF SERVICE
No.
In the Supreme Court of the United States
Mary Raleigh
Petitioner-Appellee
and
Charles Golbert
Public Guardian, Appellee
vs.
Deborah Cheng
Respondent-Appellant
I, Deborah Cheng, a non-attorney, do declare that on this date, April 13, 2021 as required by Supreme
Court Rule 291 have served the enclosed PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding, and on every other person required to be served, by delivery to a third-party commercial
carrier for delivery within 3 calendar days (and a copy that was also e-mailed to all of them).
Service List
Mary J. Raleigh
Guardian ad Litem
Law Offices of Mary J. Raleigh, LLC
1011 Lake St, #423 Oak Park, IL 60301
marvraleigh@mirlawllc.com
Charles P. Golbert
Kass A. Plain
Carrie Fung
Office of the Public Guardian
2245 West Ogden Avenue, Fourth Floor
Chicago, IL 60612
(312)433-4300
OPG.aDDeals@cookcountvil.gov
I declare under the penalty of peijury that the foregoing is true and correct.
Executed on April 13,2021

Deborah Cheng

£r
12

